CERTIFICATE OF WORD COUNT
No. TBD
Timothy Dasler,
Petitioner,
v.
Jennifer Dasler,
Respondent.

STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of the
Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the Timothy Dasler
Petition for Writ of Certiorari contains 7809 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Chan Seknar

August 2, 2021

SCP Tracking: Dasler-488 NH Route 10 Apt D-Cover White

